A1

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
Richard E. Boggs,
Petitioner,

)

C/A No.: l:18-3506-MGL-SVH

)
)
)

vs.
United States; Peter Rae and
Coworkers, et al. as
individuals; and Internal
Revenue Service,
Respondents.

)
)
)
)

REPORT AND
RECOMMENDATION

)
)
)
)

Richard Boggs (“Petitioner”) proceeding pro se, filed a petition
seeking to quash summonses by the Internal Revenue Service (“IRS”).
Petitioner also sues the United States of America (“USA”) and “Peter
Rae and coworkers” (collectively with IRS, “Respondents”). [ECF No. 1].
This matter comes before the court on Respondents’ motion to
dismiss pursuant to Fed. R. Civ. P. 12(b)(1) and (6). [ECF No. 28].
Pursuant to Roseboro v. Garrison, 528 F.2d 309 (4th Cir. 1975),
Petitioner was advised of the dismissal procedures and possible
consequences if he failed to respond adequately to the motion by April
5, 2019. [ECF No. 29]. The motion having been briefed [ECF No. 33, 34],
it is ripe for disposition.

A2

All pretrial proceedings in this case were referred to the
undersigned pursuant to the provisions of 28 U.S.C. § 636(b) and Local
Civ. Rule 73.02(B)(2)(e) (D.S.C.). Because the motion to dismiss is
dispositive, this Report and Recommendation is entered for the district
judge’s consideration. For the reasons that follow, the undersigned
recommends the court grant Respondents’ motion to dismiss.

I.

Factual Background
On December 10, 2018, Special Agent Peter Rae of the IRS’s

Criminal

Investigation

division

issued

seven

administrative

summonses (“the summonses”) in connection with an investigation.
[ECF No. 1-2]. The summonses are addressed to six of Petitioner’s
current and/or former employers and to a company that provides video
doorbell subscription services, Ring.com. Id. All seven summonses are
addressed to entities outside of the State of South Carolina. Id.
Petitioner initiated this action by filing a Petition on December
19, 2018, seeking: (1) to quash the summonses; (2) a “Bill of Particulars”
from the IRS documenting probable cause for its criminal investigation;
(3) civil damages of an unspecified amount; (4) a writ of mandamus
compelling “the supervisors of this/these errant federal actors and
outlaws to discipline them and compel them to cease their unlawful
activities . . .” ; and (5) a statement of findings by the court “backed up

A3

by rulings from the Supreme Court” if the court disagrees with
Petitioner’s claims as to jurisdiction. [ECF No. 1].
Subsequent to filing his petition, Petitioner filed an “Affidavit of
Material Facts in Support of Petition to Quash Summons,” [ECF No.
6], a motion for temporary restraining order and preliminary injunction
[ECF No. 21], 1 and a motion to quash the summonses [ECF No. 22].

II.

Discussion
A.

Standard on Motion to Dismiss^

Dismissal is appropriate under Fed. R. Civ. P. 12(b)(1) where the
court lacks subject-matter jurisdiction. A motion to dismiss under Rule
12(b)(1) examines whether a complaint fails to state facts upon which
jurisdiction can be founded. It is the plaintiffs burden to prove
jurisdiction, and the court is to “regard the pleadings' allegations as
mere evidence on the issue, and may consider evidence outside the
pleadings without converting the proceeding to one for summary
judgment.” Richmond, Fredericksburg & Potomac R.R. Co. v. United
States, 945 F.2d 765, 768 (4th Cir. 1991). The court is “not required to

1 Plaintiffs request for a temporary restraining order was denied on
March 7, 2019, but the request for a preliminary injunction remains
pending. [ECF No. 31].

A4

2 Although Respondents presented matters outside of the pleadings, the
undersigned has not considered these documents and has not converted
Respondents’ motion to one for summary judgment.

A5

accept as true the legal conclusions set forth in a plaintiffs complaint.”
Edwards v. City of Goldsboro, 178 F.3d 231, 244 (4th Cir. 1999). Indeed,
the presence of a few conclusory legal terms does not insulate a complaint
from dismissal when the facts alleged in the complaint cannot support the
legal conclusion. Young v. City of Mount Ranier, 238 F.3d 567, 577 (4th Cir.
2001). To survive a motion to dismiss under Fed. R. Civ. P. 12(b)(6), “a
complaint

must contain sufficient factual matter, accepted as true, to

‘state a claim to relief that is plausible on its face.’” Ashcroft v. Iqbal, 129
S. Ct. 1937, 1949 (2009) (quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544,
570 (2007)). The court is “not required to accept as true the legal
conclusions set forth in a plaintiffs complaint.” Edwards v. City of
Goldsboro, 178 F.3d 231, 244 (4th Cir. 1999). Indeed, “[t]he presence of a
few conclusory legal terms does not insulate a complaint from dismissal
under Rule 12(b)(6) when

the

support the legal conclusion.”

facts

alleged in the complaint cannot

Young v. City

of Mount Ranier, 238 F.3d

567, 577 (4th Cir. 2001).
Pro se complaints are held to a less stringent standard than those
drafted by attorneys. Gordon v. Leeke, 574 F.2d 1147, 1151 (4th Cir.
1978). A federal court is charged with liberally construing a complaint
filed by a pro se litigant to allow the development of a potentially
meritorious case. Erickson v. Pardus, 551 U.S. 89, 94 (2007). When a
federal court is evaluating a pro se complaint, the plaintiffs allegations

A6

are assumed to be true. Fine v. City of N.Y., 529 F.2d 70, 74 (2d Cir.
1975). The mandated liberal construction afforded to pro se pleadings
means that if the court can reasonably read the pleadings to state a
valid claim on which the plaintiff could prevail, it should do

so.

Nevertheless, the requirement of liberal construction does not mean
that the court can ignore a clear failure in the pleading to allege facts
that set forth a claim currently cognizable in a federal district court. Weller
v. Dep’t of Soc. Servs., 901 F.2d 387, 390—91 (4th Cir. 1990).

B.

Analysis
1.

Subject Matter Jurisdiction

Respondents argue the court lacks subject matter jurisdiction to
hear Petitioner’s claim for relief because he has not provided any
evidence that sovereign immunity has been waived. The USA, as a
sovereign entity, is immune from suit unless it consents to be sued.
Webb v. United States, 66 F.3d 691, 693 (4th Cir. 1995) (citing Library
of Congress v. Shaw, 478 U.S. 310, 315 (1986)). The terms of any such
consent, as expressed by statute, “‘define that court’s jurisdiction to
entertain the suit.’” Id. (quoting United States v. Sherwood, 312 U.S.
584, 586 (1941)). Any waiver of the USA’s sovereign immunity must be
unambiguous and strictly construed in favor of the USA. United States
v. Nordic Village, Inc., 503 U.S. 30, 34 (1992). Plaintiff bears the burden

A7
of showing an unequivocal waiver and that none of a statute’s waiver
exceptions apply to the particular claim. Welch v. United States, 409
F.3d 646, 650—51 (4th Cir. 2005). Because Plaintiff has not, and cannot,
cite a waiver of sovereign immunity, his claim for relief must be
dismissed. See, e.g., United States v. Mitchell, 445 U.S. 535, 538 (1980);
Medina v. United States, 259 F.3d 220, 223 (4th Cir. 2001).
2.

Quashing Summonses

The court is also without jurisdiction to hear Petitioner’s requests
to quash the summonses because they are directed at parties outside of
the District of South Carolina. The statute provides “The United States
District Court for the district within which the person to be summoned
resides or is found shall have jurisdiction to hear and determine any
proceeding brought under subsection (b)(2) . . ..” 26 U.S.C. § 7609(h).
Subsection (b)(2) provides the circumstances for proceedings to quash
summonses. Therefore, this court does not have jurisdiction to quash
the summonses.3

3 Petitioner argues throughout his filings that Respondent does not have
jurisdiction to issue summonses. However, 26 U.S.C. § 7608(b)(2)(A) appears to
provide for Rae’s authority to issue the summonses. Regardless, any challenge to
the legitimacy of the summonses should be brought in the district in which the
summonsed party may be found.

A8

1.

Mandamus

“The authority of federal courts to issue extraordinary writs
derives from the ‘all writs statute,’ 28 U.S.C. § 1651.” See Gurley v.
Superior Court of Mecklenburg County, 411 F.2d 586, 587 (4th Cir.
1969). Section 1651 provides, in pertinent part, that federal courts “may
issue all writs necessary or appropriate in aid of their respective
jurisdictions and agreeable to the usages and principles of law.” 28
U.S.C.

§

1651(a).

Federal

district courts are granted “original

jurisdiction of any action in the nature of mandamus to compel an
officer or employee of the United States or any agency thereof to
perform a duty owed to the plaintiff.” 28 U.S.C. § 1361.
“Mandamus

is

a

drastic remedy,

to

be

invoked

only

in

extraordinary situations.” United States v. Moussaoui, 333 F.3d 509,
516 (4th Cir. 2003) (internal quotation marks omitted). The Fourth
Circuit Court of Appeals has held:
“[t]he party seeking a writ of mandamus must satisfy the
conditions of a rigorous test, demonstrating each and every
one of the following requirements: (1) he has a clear and
indisputable right to the relief sought; (2) the responding
party has a clear duty to do the specific act requested; (3)
the act requested is an official act or duty; (4) there are no
other adequate means to attain the relief he desires; and (5)

A9
the issuance of the writ will effect right and justice in the
circumstances.”
In re Braxton, 258 F.3d 250, 261 (4th Cir. 2001) (citing UnitedStates ex rel. Rahman v. Oncology Assocs., P.C., 198 F.3d 502 (4th Cir.
1999)). The writ “is intended to provide a remedy for a plaintiff . . . only
if the defendant owes him a clear nondiscretionary duty.” Heckler v.
Ringer, 466 U.S. 602, 616 (1984) (emphasis added). Here, Petitioner has
failed to identify a non- discretionary duty Rae or Rae’s supervisors owe
him. Therefore, he has failed to present a cognizable claim for
mandamus relief.
2.

Civil Damages

In his request for damages against Rae and his coworkers,
Plaintiff requests restitution from Rae’s “personal pay and assets, and
not from the government. . . .” Plaintiff cites to criminal statutes Rae has
allegedly violated, but such statutes do not give rise to civil liability. To
the extent Petitioner seeks to bring a civil rights action against Rae
pursuant to Bivens v. Six Unkown Agents of Federal Bureau of Narcotics,
403 U.S. 388 (1971), a petition is not a proper method of obtaining such
relief. However, even construing his petition liberally, Petitioner has
failed to show that the Bivens doctrine should be expanded to include a
claim for damages related to an IRS investigation in light of the complex
statutory scheme Congress has provided for the collection of taxes. See

A10
Ziglar v. Abbasi, 137 S. Ct. 1843, 1857 (2017) (noting that the United
States Supreme Court has extended Bivens only in limited
circumstances, and cautioning that a Bivens remedy will not be available
if there are “special factors counselling hesitation in the absence of
affirmative action by Congress”).

3.

Miscellaneous Relief

Petitioner has provided no basis for requesting a “Bill of
Particulars”

from

the

IRS

documenting probable

cause

for its

investigation. Nor has he provided any authority for requesting the
court provide a “statement of findings backed up by rulings from the
Supreme Court if it disagrees with any of [Petitioner’s] claims about
jurisdiction.”
III.

Conclusion and Recommendation
For the

foregoing

reasons,

the

undersigned

recommends

Respondents’motion to dismiss be granted. If the district judge accepts
this recommendation, Petitioner’s motions for a preliminary injunction
[ECF No. 21] and to quash the summonses [ECF No. 22] will be
rendered moot.
IT IS SO RECOMMENDED.

July 26, 2019
Columbia, South Carolina.

Shiva V. Hodges
United States Magistrate Judge

All

APPENDIX
3:18-cv-03506-MGL

Date Filed 08/08/19

Entry Number 39

Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
COLUMBIA DIVISION
RICHARD E. BOGGS,
Petitioner,
vs.
UNITED STATES; PETER RAE and
Coworkers, et al., as individuals; and
INTERNAL REVENUE SERVICE
Respondents.

§
§
§
§
§
§
§
§
§

CIVIL ACTION NO. 3:18-3506-MGL

ORDER ADOPTING THE REPORT AND RECOMMENDATION,
GRANTING RESPONDENTS’ MOTION TO DISMISS,
AND RENDERING AS MOOT PETITIONER’S's MOTIONS
FOR A PRELIMINARY INJUNCTION AND TO QUASH THE SUMMONSES
Petitioner Richard E. Boggs (Boggs), a self-represented litigant, filed this action against the
United States, Peter Rae and Coworkers, et al., as individuals, and the Internal Revenue Service
(collectively, Respondents). The matter is before the Court for review of the Report and
Recommendation (Report) of the United States Magistrate Judge suggesting Respondents’ motion
to dismiss be granted. The Report was made in accordance with 28 U.S.C. § 636 and Local Civil
Rule 73.02 for the District of South Carolina.
The Magistrate Judge makes only a recommendation to this Court. The recommendation has
no presumptive weight. The responsibility to make a final determination remains with the Court.
Mathews v. Weber, 423 U.S. 261, 270 (1976). The Court is charged with making a de novo
determination of those portions of the Report to which specific objection is made, and the Court may

APPENDIX

A12

3:18-cv-03506-MGL Date Filed 08/08/19 Entry Number 39 Page 2 of 2
accept, reject, or modify, in whole or in part, the recommendation of the Magistrate
Judge or recommit the matter with instructions. 28 U.S.C. § 636(b)(1).
The Magistrate Judge filed the Report on July 26, 2019, and the Clerk of Court
entered Boggs’s objections on August 5, 2019. The Court has reviewed the objections,
but holds them to be without merit. It will therefore enter judgment accordingly.
Boggs offers no specific objections to the Report. Instead, his arguments
generally fall into two categories. The first group is composed of contentions the
Magistrate Judge has already addressed. And, because the Court agrees with her
treatment of them, it need not repeat her analysis here. Boggs’s remaining arguments
are so lacking in merit as to require no discussion.
After a thorough review of the Report and the record in this case pursuant to the
standard set forth above, the Court overrules Boggs’s objections, adopts the Report, and
incorporates it herein. Therefore, it is the judgment of the Court Respondents
motion to dismiss is GRANTED. Consequently, Boggs’s motions for a preliminaiy
injunction and to quash the summonses are RENDERED MOOT.
IT IS SO ORDERED.

Signed this 8th day of August, 2019, in Columbia, South Carolina.
s/ Mary Geiger Lewis MARY GEIGER LEWIS
UNITED STATES DISTRICT JUDGE
sfc $ s|c

NOTICE OF RIGHT TO APPEAL

The parties are hereby notified of the right to appeal this Order within sixty days
from the date hereof, pursuant to the Federal Rules of Appellate Procedure.

APPENDIX

A13

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-2090
RICHARD E. BOGGS,
Petitioner - Appellant,
v.
UNITED STATES; PETER RAE, and coworkers, et al. as individuals;
INTERNAL REVENUE SERVICE
Respondents - Appellees.
Appeal from the United States District Court for the District of South Carolina,
at Columbia. Mary G. Lewis, District Judge. (3:18-cv-03506-MGL)
Submitted: February 7, 2020 Decided: March 4, 2020
Before NIEMEYER and KEENAN, Circuit Judges, and TRAXLER, Senior
Circuit Judge.
Affirmed by unpublished per curiam opinion.
Richard E. Boggs, Appellant Pro Se. Bruce R. Ellisen, Curtis Clarence Pett,
Tax Division, UNITED STATES DEPARTMENT OF JUSTICE, Washington,
D.C, for Appellee.
Unpublished opinions are not binding precedent in this circuit.
USCA4 Appeal: 19-2090 Doc: 15 Filed: 03/04/2020 Pg: 1 of 2
PER CURIAM:
Richard E. Boggs appeals the district court’s orders adopting the report
and recommendation of the magistrate judge, granting Defendants’ motion to

APPENDIX

A14

dismiss and denying Boggs’ motion for reconsideration. We have reviewed the
record and find no reversible error. Accordingly, we affirm for the reasons
stated by the district court. Boggs v. United States, No. 3:18-cv-03506-MGL
(D.S.C. Aug. 8 & Sept. 4, 2019). We dispense with oral argument because the
facts and legal contentions are adequately presented in the materials before
this court and argument would not aid the decisional process.
AFFIRMED
USCA4 Appeal: 19-2090 Doc: 20 Filed: 06/09/2020 Pg: 1 of 1

A15

APPENDIX

FILED: June 9, 2020
UNITED STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT
No. 19-2090 (3:18-cv-03506-MGL)

RICHARD E. BOGGS
Petitioner - Appellant
v.
UNITED STATES; PETER RAE, and coworkers, et al. as individuals; INTERNAL
REVENUE SERVICE
Respondents - Appellees

ORDER

The court denies the petition for rehearing.
Entered at the direction of the panel: Judge Niemeyer, Judge Keenan, and Senior
Judge Traxler.
For the Court
/s/ Patricia S. Connor. Clerk

APPENDIX

A16

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
Richard E. Boggs,
Plaintiff,

)
)
)
)
)
)
)

vs.
Peter Rae,
Defendant.

C/A No. 3:19-551-MGL-SVH

REPORT AND
RECOMMENDATION

)

Richard E. Boggs (“Plaintiff’), proceeding pro se, initiated this
action by filing complaint and motion for restraining order against Peter
Rae (“Rae”), an Internal Revenue Service (“IRS”) special agent, seeking
the court to enjoin Rae from contacting Plaintiff and his family.
This matter is before the court on motion filed by the United States of
America (“USA”) seeking to substitute the USA for Rae as defendant
and seeking dismissal of Plaintiffs complaint for lack of subject-matter
jurisdiction. [ECF No. 11]. Plaintiff filed an opposition to the USA’s
motion. [ECF No. 14] A The motion is ripe for disposition.
1 Plaintiff also submitted two sets of “supporting documentation,”
totaling over 450 pages, consisting primarily of complaints, letters, and
documentation Plaintiff submitted to various governmental entities
concerning his ongoing dispute with the IRS [ECF No. 10, ECF No. 19],
all of which the undersigned has disregarded as non-standard items not
permitted to be filed or otherwise responsive to the issues raised in the
Pursuant to the provisions of 28 U.S.C. § 636(b), and Local Civ.
pending motion to dismiss.

A17

APPENDIX

Rule 73.02(B)(2)(e) (D.S.C.), this matter has been referred to the
undersigned for all pretrial proceedings. Because the motion to dismiss
is dispositive, this Report and Recommendation is entered for the
district judge’s

consideration,

For the

reasons

that follow,

the

undersigned recommends the district judge grant the USA’s motion,
substituting the USA as defendant in the present action and dismissing
the case for lack of jurisdiction.

I. Factual and Procedural Background
As has been previously addressed by the court in Boggs v. United
States, 3:18-CV-3506 (“Boggs

V”), Plaintiff is subject to an ongoing

investigation, conducted by Rae, of possible offenses committed by
Plaintiff in connection with the administration or enforcement of the
internal revenue laws. [Boggs V, ECF 28-2 H 1, 3].^
On January 18, 2019, Plaintiff filed a complaint and motion
for restraining order in the Magistrate s Court of Richland
County,

South Carolina, alleging Rae made contact in person and

through phone calls with Plaintiff, Plaintiffs spouse, or his spouses
2 A district court may take judicial notice of materials in the court’s
own files from prior proceedings. See Colonial Penn Ins. Co. v. Coil, 887
F.2d 1236, 1239 (4th Cir. 1989) (noting the most frequent use of
judicial notice is in noticing the content of court records); Fletcher v.
Bryan, 175 F.2d 716, 717 (4th Cir. 1949).

APPENDIX

A18

employer on a number of occasions, “for no legitimate purpose other
than to harass, intimidate, and cause mental or emotional distress.”
[ECF No. 1-l^fTf 3, 4]. Plaintiff states Rae held himself out as a special
agent of the IRS Criminal Investigation Division, but provided no official
credentials, and unlawfully surveilled Plaintiffs home. Plaintiff seeks an
order enjoining Rae from abusing him or his family, from entering or
attempting to enter Plaintiffs residence or place of employment, and from
communicating with Plaintiff and his family in a way that violates South
Carolina law. Id. Tf 5.
On February 22, 2019, the USA removed this action pursuant to 28
U.S.C. § 1442(a).^ In its motion to dismiss filed on March 1, 2019, the
USA argues it should be substituted in this action as a defendant and as
the real party in interest, and the matter should be dismissed as barred
by the doctrine of sovereign immunity as well as the Anti-Injunction Act
and the Declaratory Judgment Act, where, as here, Plaintiff “seeks to

3 This is the sixth case filed by Plaintiff and addressed by this court wherein
Plaintiff challenges the IRS’s efforts to assess and collect taxes from him.
See Boggs v. United States, 3:16-CV-1178 (dismissing action sua sponte for
failure to allege any non-frivolous, cognizable claims), Boggs v. United
States, 3:16-CV-2865 (same), Boggs v. Logic Technology, Inc., 3:17-CV-2166
(granting USA’s motion to dismiss), Boggs v. United States, 3:18-CV-1915
(same), Boggs V (same).

A19

enjoin Special Agent Rae from conducting his lawful duties as a
criminal investigator for the IRS.” [ECF No. 11-1 at 1].

A. Standard of Review
Dismissal is appropriate under Fed. R. Civ. P. 12(b)(1) where the
court lacks subject-matter jurisdiction. A motion to dismiss under Rule
12(b)(1) examines whether a complaint fails to state facts upon which
jurisdiction can be founded. It is the plaintiffs burden to prove
jurisdiction, and the court is to “regard the pleadings’ allegations as
mere evidence on the issue, and may consider evidence outside the
pleadings without converting the proceeding to one for summary
judgment.” Richmond, Fredericksburg & Potomac R.R. Co. v. United
States, 945 F.2d 765, 768 (4th Cir. 1991) (citing Adams v. Bain, 697 F.2d
1213, 1219 (4th Cir.1982)). The court is “not required to accept as true the
legal conclusions set forth in a plaintiffs complaint.” Edwards v. City of
Goldsboro, 178 F.3d 231, 244 (4th Cir. 1999). Indeed, the presence of a few
conclusory legal terms does not insulate a complaint from dismissal when
the facts alleged in the complaint cannot support the legal conclusion.
Young v. City of Mount Ranier, 238 F.3d 567, 577 (4th Cir. 2001).
Pro se complaints are held to a less stringent standard than
those drafted by attorneys. Gordon v. Leeke, 574 F.2d 1147, 1151 (4th

A20

Cir. 1978). A federal court is charged with liberally construing a
complaint filed by a pro se litigant to allow the development of a
potentially meritorious case. Erickson v. Pardus, 551 U.S. 89, 94 (2007).
When a federal court is evaluating a pro se complaint, the plaintiffs
allegations are assumed to be true. Fine v. City of N.Y., 529 F.2d 70,
74 (2d Cir. 1975). The mandated liberal construction afforded to pro
se pleadings means that if the court can reasonably read the pleadings
to state a valid claim on which the plaintiff could prevail, it should do
so. Nevertheless, the requirement of liberal construction does not
mean that the court can ignore a clear failure in the pleading to allege
facts that set forth a claim currently cognizable in a federal district
court. Weller v. Dep t of Soc. Servs., 901 F.2d 387, 390—91 (4th Cir. 1990).

B. Analysis
Plaintiff opposes substitution of the USA as the defendant in this
case, arguing Rae “acted outside any legal authority as a purported ‘law
officer of the US,’” and thus Plaintiffs action against Rae is “as an
individual” in that Rae “willfully, intentionally, and with malice acted
outside his official capacity, authority, and jurisdiction.” [ECF No. 14-1
at 4—5]. However, it is undisputed all alleged actions taken by Rae were
taken in the course of Rae’s investigation of Plaintiff.
As has been held by multiple courts in this district, plaintiffs

A21
claims for relief “are properly viewed as claims against the United States
because the United States is the proper defendant in actions against IRS
employees in which the taxpayer alleges misconduct by the IRS
employees with respect to taxes.” Riley v. Bartlett, No. 6:14-350-TMCKFM, 2014 WL 4746289, at *2 (D.S.C. Aug. 13, 2014), report and
recommendation adopted, No. CIV.A. 6:14-350-TMC, 2014 WL 4417708
(D.S.C. Sept. 8, 2014), affd, 615 F. App’x 794 (4th Cir. 2015); Aderinto v.
Tax Payer Advocate (IRS), No. C.A. 308-1551- JFA-BM, 2008 WL 2077910,
at *3 (D.S.C. May 14, 2008) (“Hence, the United States, not the IRS or
individual Internal Revenue Service (IRS) employees, is the proper
defendant in a taxpayer’s action alleging misconduct by the Internal
Revenue Service with respect to taxes.”); see also Johnson v. Barr, C.A.
No. 7:11—cv—104—BO, 2012 WL 7983770, at *1 (E.D.N.C. Oct. 2, 2012)
(“Courts in the Fourth Circuit have recognized that the United States,
and not its individual employees, is the proper party in a suit based on
actions taken

by

IRS

employees

in

their

official

capacity.”);

Portsmouth Redev. & Hous. Auth. v. Pierce, 706 F.2d 471, 473 (4th
Cir. 1983) (“This is a suit against a federal official for acts performed
within his official capacity, and, consequently, it amounts to an action
against the sovereign.”).
In determining the proper defendant in this suit, it does not
matter that Plaintiff believes the IRS has no legal authority to

A22

investigate him and. that

Rae

has

conducted

his

investigation

improperly. Plaintiffs allegations concern actions taken by Rae only in
the course of his work as an IRS agent, and Plaintiff does not argue
otherwise in opposition to the USA's motion to dismiss. [ECF No. 1-1,
ECF No. 14-1 at 4]. Accordingly, the court deems this case to be against
the USA.
As such, this court lacks subject-matter jurisdiction over this case
for multiple reasons. First, the USA, as a sovereign entity, is immune
from suit unless it consents to be sued. Webb v. United States, 66 F.3d
691, 693 (4th Cir. 1995) (citing Library of Congress v. Shaw, 478 U.S.
310, 315 (1986)). The terms of any such consent, as expressed by statute,
“define that court’s jurisdiction to entertain the suit.” United States v.
Sherwood, 312 U.S. 584, 586
sovereign

immunity

must

(1941).

Any

waiver

of

the

USA’s

be unambiguous and strictly construed

in favor of the USA. United States v. Nordic Village, Inc., 503 U.S. 30,
34 (1992). Plaintiff bears the burden of showing an unequivocal waiver
and that none of a statute’s waiver exceptions apply to the particular
claim. Welch v. United States, 409 F.3d 646, 650—51 (4th Cir. 2005).
Because Plaintiff has not, and cannot, cite a waiver of sovereign
immunity, his claim for relief must be dismissed. See, e.g., United
States v. Mitchell, 445 U.S. 535, 538 (1980); Medina v. United States,
259 F.3d 220, 223 (4th Cir. 2001).

A23

Additionally,

the Anti-Injunction Act prohibits

attempts to

restrain the IRS from collecting taxes. 26 U.S.C. § 7421(a) (stating,
except as provided in certain other sections not applicable here, no suit
for the purpose of restraining the assessment or collection of any tax
shall be maintained in any court by any person . . .

As stated by the

Fourth Circuit, the Anti-Injunction Act’s effect “is simple and obvious:
courts lack jurisdiction to issue injunctive relief in suits seeking to
restrain the assessment or collection of taxes.” Judicial Watch v.
Rossotti, 317 F.3d 401, 405 (4th Cir. 2003); see also id. (“it is clear that
the Anti—Injunction Act extends beyond the mere assessment and
collection of taxes to embrace other activities, such as an audit to
determine tax liability, that may culminate in the assessment or
collection of taxes”). In Judicial Watch, the Fourth Circuit delineated
“safeguards and remedies” Congress has provided “[w]ith respect to
alleged misconduct by individual IRS employees,” and rejected the
argument the court could issue an injunction, even where plaintiffs in
that case “attribute[ed] a non-tax related purpose to the IRS’s actions.”
Id. at 407, 410.
Similarly, the Declaratory Judgment Act authorizes courts to
issue declaratory

within

judgments

“[i]n

a

case

of

actual

controversy

its jurisdiction, except with respect to Federal taxes other

than actions brought under section 7428 of the Internal Revenue Code

A24

of 1986

.

28 U.S.C. § 2201(a) (emphasis added). This Act “removes

subject matter jurisdiction with respect

to

suits

to

declare

the

rights and other legal relations of any interested party with respect
to federal taxes . . .
(D.S.C.

1994)

(noting

Felkel v. United States, 861 F. Supp. 507, 509
the

Declaratory

Judgment Act and

Anti-

Injunction Act, together, “have been held to reflect congressional
intent to require taxpayers to litigate tax controversies either in Tax
Court, see 26 U.S.C. § 6213(a), or to 'pay first, litigate later' through a
suit for a tax refund, see 28 U.S.C. § 1346(a)(1); 26 U.S.C. § 7422, whenever
disputes arise regarding the payment of taxes”).
In sum, the court is without subject-matter jurisdiction over
Plaintiffs complaint seeking to enjoin the investigative activities of an
IRS agent taken within the scope of that agent’s employment.

III. Conclusion and Recommendation
For the foregoing reasons, it is recommended the district judge
grant the USA’s motion to dismiss. [ECF No. 11].
IT IS SO RECOMMENDED.

November 19, 2019
Columbia, South Carolina

Shiva V. Hodges
United States Magistrate Judge

A25

The parties are directed to note the important information in the attached
“Notice of Right to File Objections to Report and Recommendation.”

A26

AO 450 (SCD 04/2010) Judgnwnt in a Gvil Action

United States District Court
forfte
District of South Carolina
Richard E, Boggs.
Plaintiff
v.
United States of America.

)
)

)

Civil Action No.

3:19-cv-00551-MGL

)
)

Defendant

JUDGMENT IN A CIVIL ACTION
The court has ordered that (check one):
O the plaintiff (name)

recover from the defendant (name)

the amount of

dollars ($_),

which includes prejudgment interest at the rate of__ %, plus postjudgment interest at fee rate of___ %, along wife
costs.

O tire plaintiff recover nothing, fee action be dismissed on fee merits, and fee defendant (name)________________
recover costs from fee plaintiff (name)______________ .
■ fee plaintiff, Richard E. Boggs, take nothing of fee defendant, United States of America, and this action is dismissed
without prejudice.
This action was (check one):
O tried by a jury, fee Honorable
□ tried by fee Honorable

presiding, and the jury has rendered a verdict
presiding, without a juiy and fee above decision was reached.

■ decided by fee Court, fee Honorable Mary Geiger Lewis, US District Judge, presiding. The Court having adopted
the Report and Recommendation of US Magistrate Judge Shiva V. Hodges, granting defendant's motion to dismiss.

Date: January 16,2020

ROBINL. BLUME, CLERK OF COURT
s/Charies L. Bruorton
Signature ofClerk or Deputy Clerk

A27

Mfl

9D.1K79

In the United States Court of Appeals
For the Fourth Circuit
Richard E. Boggs Pro Se
Petitioner/Appellant
V.

United States of America, Peter Rae
Respondent/ Appellee

ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
AT COLUMBIA

Appellant's Opening Informal Brief

Counsel for

A28

20-1672 Informal Opening Brief

TABLE OF AUTHORITIES
Cases
Barnhart, Comm'r ofSocial Security v. Sigmon Coal Co., Inc., 534 US 438,450 (2002)

4

Robinson v. Shell OH Co., 519 US 337, 340 (1997) (citing United States v. Ron Pair Enterprises,
5
Inc.,A%9 US 235,240(1989)))

Statutes
5 USC § 706

4

18 USC §4

8

18 USC § 241

.6,7

18 USC § 242

7

18 USC §872

7

18 USC § 1341

7

18 USC § 1589(3)

8

18 USC § 1593

8

18 USC § 1962

7

26 USC §7602

1

*26 USC § 7608..............................................

1,2,3,4, 5, 6

*26 USC § 7803(a)(3) [Taxpayer Bill of Rights]

7

28 USC § 1746

9

A29

Regulations
26 CFR § 1.274-5

3

Internal Revenue Manual
IRM 5.17.5.13

3

IRM 9.1.2.2 (09-06-2013)(1)

1

A30

Tssue 1: Thp District, Court, Tmnronerlv Removed This Case from State Court
and Improperly Substituted the United States of America (USA) As the
Defendant.
Facts in sunnort of Issue 1:
1) The lower court failed to properly consider and interpret 26 USC § 7608 in
regard to IRS agent authority relating to Subtitle A (Income). This fact is
undisputed, and the Plaintiff argues this point repeatedly throughout, despite
the magistrate's statement to the contrary in her R & R This fact is confirmed
on pg. 3 of the judge's Order [EN 27].
a. IRC 7608 could not be clearer and more unambiguous in its language as to
authority of any IRS enforcement officer/agent. Accordingly, it sets the
foundation for authority for other agent actions such as those specified in IRC
§ 7602. The court and the DOJ choosing to ignore IRC § 7608 does not make it
any less relevant.
b. Even the IRS’ s own manual2 instructs that IRC § 7608 "provides the initial
authority", not IRC § 7602 as the DOJ claims.
c. The USDC failed to even mention this controlling statute here, but did muster
a vague, doubtful rendering in 3:18-cv-03506 magistrate's R&R [EN 36] pg. 7,
footnote 3 by stating:
Petitioner argues throughout his filings that Respondent does not have

1 See EN 20 pg 6.
2 See IRM 9.1.2.2 (09-06-20 I 3)(1)

A31
jurisdiction to issue summonses. However, 26 US. C. § 7608(b)(2)(A)
appears to provide for Rae's authority to issue the summonses.
Although the magistrate erred in stating "Petitioner argues throughout his
filings that Respondent does'not have jurisdiction ..." since Petitioner only
argues lack of authority - "appears" is insufficient to base a ruling and
leaves

doubt as to

the court's reliance to base a decision. This alone is

q
sufficient grounds to reverse the lower court ruling0
2) Peter Rae (hereafter "Rae") declared in his 28 February 2019 sworn
declaration [see 3:18-cv-0551 ECF No 28-2] that he is a "duly commissioned
Special Agent employed by the Internal Revenue Service's Criminal
Investigation Division". "Agents" are granted enforcement authority from IRC
7608(a) relating to enforcement of Subtitle E ONLY!

3 A tax must be imposed by clear and unequivocal language. Where the
construction of a tax law is doubtful, the doubt is to be resolved in favor of whom
upon which the tax is sought to be laid. (See Spreckles Sugar Re.fining v.
McClain, 192 U.S. 397,416 (1904); Gould v. Gould, 245 U.S. 151, 153 (1917);
Smietanka v. First Trust & Savings Bank, 257 U.S. 602,606 (1922); Lucas
v. Alexander, 279 U.S. 573,577 (1929); Crooks v. Harrelson, 282 U.S. 55
(1930); Burnet v. Niagra Falls Brewing Co., 282 U.S. 648, 654 (1931); Miller
v. Standard Nut Margarine Co., 284 U.S. 498, 508 (1932); Gregory v.
Helvering, 293 U.S. 465, 469 (1935); Hassett v. Welch, 303 U.S. 303, 314
(1938); US. v. Batchelder, 442 U.S. 114, 123 (1978)).

A32

3) The District Court erred in its Notice of Removal [EN 1] in referring to Rae as "a
sworn law enforcement officer of the United States of America". Rae, or ANY
IRS "agent", is NOT a "law enforcement officer" according to 26 CPR§ 1.274enforcement officer" may
investigator

otherwise

include

an

arson

investigator

if the

meets the reouirements of this paragraph

(k)(6)(ii), but daps not, include Internal Revenue Service special
aeents.
4) Special Agent Rae acted outside the scope of his statutory authority as
dictated by IRC § 7608 when issuing summons and harassing the Plaintiff and
Plaintiffs spouse regarding Subtitle A tax. IRM 5.17.5.13 (3) clearly states
"Official immunity applies only when the officer or employee of the Government
is acting within the scope of his or her authority". IRM 5.17.5.13 (4) goes on to
state "Officials and employees of the United States are liable in their own right,
in criminal and civil actions instituted in federal or state courts, for their actions
dome outside of the scope of the duties of their office or employment. Thereby
making the "sovereign immunity" defense moot and Rae personally liable for his
actions. This alone is sufficient grounds for reversal of the USDC ruling.
TBBnft 2- The District Court Failed to Provide the Plaintiff Review as
Required Bv 5 USC § 706.
Facts in support of Issue 2;
1) The District Court is compelled by 5 USC § 706 to hold unlawful and set
aside agency action(s) found to be in excess of statutory authority.
2) The District Court, apparently blinded by its biased determination to find

A3B
in favor of the government, ignored the foundational statute (26 USC §
7608) which clearly defines the extend and limitation of authority bestowed
upon IRS agents by Congress. Thereby proceeding as though agent Rae had
authority to undertake the actions taken and ignoring the clear
unambiguous language of IRC § 7608 in order to dispose of this case using
the "sovereign immunity" defense which the Appellant has shown to be not
applicable in this case.
3) The Supreme Court says that a court's duty is to interpret the provisions
relied upon. (See Barnhart, Comm'r of Social Security v. Sigmon Coal Co.,
Inc., 534 US 438, 450 (2002) ("As in all statutory construction cases, we
begin with the language of the statute. The first step "is to determine
whether the language at issue has a plain and unambiguous meaning with
regard to the particular dispute in the case." Robinson u. Shell Oil Co., 519
US 337, 340 (1997) (citing United States v. Ron Pair Enterprises, Inc., 489 US
235, 240 (1989)). The inquiry ceases "if the statutory language is
unambiguous and 'the statutory scheme is coherent and consistent.'" 519
US, at 340.")).
4) Congress clearly makes the obvious distinction regarding authority and
enforcement of Subtitle E (Alcohol, Tobacco, and Firearms) and "other than
Subtitle E" in IRC 7608. If Congress had intended to extend enforcement
authority to "any investigator, agent, or other internal revenue officer by
whatever term designated" regarding Subtitle A as it did to Subtitle E it

A34

would have done so.
Argument:
The Appellant is entitled to arrange his affairs in such a lawful way
as to minimize the amount of any " tax" owed, if any. The Appellant has
done that based on a good faith understanding of the law and the
application of the subject provisions referenced herein. The Appellant's
understanding and interpretation of the laws relied upon has yet to be
rebutted by the Appellee(s), therefore is undisputed.
Section 18 USC § 241 makes it a crime for "Two or more persons (to)
conspire to injure, oppress, threaten, or intimidate, any citizen in the free
exercise or enjoyment of any right or privilege secured to him by the
Constitution or laws of the United States." Under the "laws of the United
States," Rae, and the other special agent(s) who participated in any way in
the unauthorized, unlawful actions against the Appellant and his spouse
were clearly barred by the provisions of Section 7608 from doing so.
Therefore, if this Court, in conjunction with the U.S. attorneys
defending this action on behalf of the Appellee(s), were to again deny this
Appellant the protection afforded him by section 7608 et al, but were instead
to "injure" and "oppress" him further by not granting him the relief
requested and as mandated by this statute, then this Court, together with
said U.S attorneys, would be collectively in clear violation of the provisions
of 18 USC§ 241.

A35

The Appellee(s) willfully and intentionally failed to hew to the law,
their own internal guidelines, and the recognized standards of legal
construction in order to misuse the scope of their authority causing the
Appellant much financial, emotional, and professional hardship for simply
having an understanding of the law and applying that understanding to
his affairs.
The Appellee(s) willfully and intentionally denied the Appellant
the Rights guaranteed under 26 USC§ 7803(^1(3) [Taxpayer Bill of
Rights]4,
Appellant's arguments are firmly rooted in the statutory language of
the controlling subject provisions relied upon.
Conclusion:
Therefore, it has to be concluded that the actions by the Appellee(s),
U.S. Attorney's and the Department of Justice (Tax Division) to subvert
the laws, as evidenced herein, and trample on the rights of the Appellant
can only be deemed willful and intentional. This equates to extortion (18

4 (A) the right to be infornled, (B) the right to quality service, (C) the
right to pay no more than the correct amount of tax, (D) the right to challenge
the position of the Internal Revenue Service and be heard, (E) the right to appeal
a decision of the Internal Revenue Service in an independent forum, (F) the
right to finality, (G) the right to privacy, (H) the right to confidentiality, (1) the
right to retain representation, and (J) the right to a fair and just tax system.

A36

USC §872), racketeering (18 USC §1962), conspiracy against rights (18
USC §241), and deprivation of rights under color of law (18 USC §242)
committed by all those involved by their actions against this Appellant.
And, since the Appellee(s) used the U.S. Mail services in their unlawful
activity, add mail fraud (18 USC §1341) to their crimes. Rae committed
perjury in his declaration^ by claiming authority for actions he clearly
knew, or should have known, no authority existed. Ignorance of the law is
never an excuse ! The actions against this Appellant, his spouse, and
employers were in fact intended to harass, intimidate, and harm - another
lie by Rae in his declaration.
The District Court simply choose to look the other way while
Rae violated the law and the rights of the Appellant and his family.
This Appellant will hold steadfast is his conclusion(s)until
such time he is provided lawful evidence to the contrary. This
Appellant has made this court aware of said crimes as required of
him by law (18 USC §4).
Relief Requested:
Based on the above, and the facts and evidence in Appellant's
filings contained in the court record and previously submitted to
5 See 3:18-cv-03506-MGL EN 28-2 "DECLARATION OF SPECIAL
AGENT RAE".

A37

1. the IRS, Appellant respectfully requests the following relief:
a.

Reimbursement of $2,500.00 by Rae personally for:
1. attorney fees paid for legal representation of
spouse at sham, unlawful interrogation.
2. All court costs associated with this action.

2.

Find Rae committed perjury in his declaration by claiming
authority for action he clearly knew, or should have known, no
authority existed.

3.

For such other additional relief as this Court may seem just and
proper.

Verification:
I, Richard E. Boggs, do hereby swear under penalties
of perjury (28 USC §1746) that the foregoing statements and
claims are true and correct to the best of my knowledge, as I
am a first-hand witness thereto.
Executed this -5

day of Id..

2020.

Richard E. Boggs,
Appellant Pro Se
All Rights Reserved

A38

Constitutional Amendment, Statutes, and Regulations involved
(PERTINENT TEXT)

The Fourth Amendment of the United States Constitution provides:
The right of the people to be secure in their persons, houses, papers, and
effects, against unreasonable searches and seizures, shall not be
violated, and no Warrants shall issue, but upon probable cause,
supported by Oath or affirmation, and particularly describing the place
to be searched, and the persons or things to be seized.

The Fifth Amendment of the United States Constitution provides:
No person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a grand jury, except in
cases arising in the land or naval forces, or in the militia, when in actual
service in time of war or public danger; nor shall any person be subject
for the same offense to be twice put in jeopardy of life or limb; nor shall
be compelled in any criminal case to be a witness against himself, nor
be deprived of life, liberty, or property, without due process of
law; nor shall private property be taken for public use, without just
compensation.

5 U.S.C. § 706 Scope of review provides:
To the extent necessary to decision and when presented, the reviewing
court shall decide all relevant questions of law, interpret constitutional

A39
and statutory provisions, and determine the meaning or applicability of
the terms of an agency action. The reviewing court shall—
(1) compel agency action unlawfully withheld or unreasonably delayed;
and
(2) hold unlawful and set aside agency action, findings, and conclusions
found to be—
(A) arbitrary, capricious, an abuse of discretion, or otherwise not
in accordance with law;
(B) contrary to constitutional right, power, privilege, or
immunity;
(C) in excess of statutory jurisdiction, authority, or limitations, or
short of statutory right;
(D) without observance of procedure required by law;
(E) unsupported by substantial evidence in a case subject to
sections 556 and 557 of this title or otherwise reviewed on the
record of an agency hearing provided by statute; or
(F) unwarranted by the facts to the extent that the facts are
subject to trial de novo by the reviewing court.
In making the foregoing determinations, the court shall review
the whole record or those parts of it cited by a party, and due
account shall be taken of the rule of prejudicial error.
(Pub. L. 89-554, Sept. 6, 1966, 80 Stat. 393.)

A40

26 U.S.C. § 7608 Authority of internal revenue enforcement officers
provides:
(a)Enforcement of subtitle E and other laws pertaining to liquor,
tobacco, and firearms Any investigator, agent, or other internal
revenue officer by whatever term designated, whom the Secretary
charges with the duty of enforcing any of the criminal, seizure, or
forfeiture provisions of subtitle E or of any other law of the United States
pertaining to the commodities subject to tax under such subtitle for the
enforcement of which the Secretary is responsible may—
(1) carry firearms;
(2) execute and serve search warrants and arrest warrants, and
serve subpoenas and summonses issued under authority of the
United States;
(3) in respect to the performance of such duty, make arrests
without warrant for any offense against the United States
committed in his presence, or for any felony cognizable under the
laws of the United States if he has reasonable grounds to believe
that the person to be arrested has committed, or is committing,
such felony; and
(4) in respect to the performance of such duty, make seizures of
property subject to forfeiture to the United States.
(b)Enforcement of laws relating to internal revenue other than

subtitle E

A41

(1) Any criminal investigator of the Intelligence Division of the
Internal Revenue Service whom the Secretary charges with the
duty of enforcing any of the criminal provisions of the internal
revenue laws, any other criminal provisions of law relating to
internal revenue for the enforcement of which the Secretary is
responsible, or any other law for which the Secretary has
delegated investigatory authority to the Internal Revenue
Service, is, in the performance of his duties, authorized to perform
the functions described in paragraph (2).
(2) The functions authorized under this subsection to be
performed by an officer referred to in paragraph (1) are—
(A) to execute and serve search warrants and arrest
warrants, and serve subpoenas and summonses issued
under authority of the United States;
(B) to make arrests without warrant for any offense
against the United States relating to the internal revenue
laws committed in his presence, or for any felony
cognizable under such laws if he has reasonable grounds to
believe that the person to be arrested has committed or is
committing any such felony; and
(C) to make seizures of property subject to forfeiture under
the internal revenue laws.

A42

26 U.S.C. § 7803 Commissioner of Internal Revenue; other officials
provides:
[Commissioner of Internal Revenue; other officials.]
(3) Execution of duties in accord with taxpayer rights. In discharging his
duties, the Commissioner shall ensure that employees of the Internal
Revenue Service are familiar with and act in accord with taxpayer rights
as afforded by other provisions of this title, including (A) the right to be informed,
(B) the right to quality service,
(C) the right to pay no more than the correct amount of tax,
(D) the right to challenge the position of the Internal Revenue
Service and be heard,
(E) the right to appeal a decision of the Internal Revenue Service
in an independent forum,
(F) the right to finality,
(G) the right to privacy,
(H) the right to confidentiality,
(I) the right to retain representation, and
(J) the right to a fair and just tax system.

26 C.F.R. § 70.33 - Authority of enforcement officers of the Bureau provides:
Appropriate TTB officers may perform the following functions:
(a) Carry firearms;

A43

(b) Execute and serve search warrants and arrest warrants, and serve
subpoenas and summonses issued under authority of the United States:
(c) In respect to the performance of such duty, make arrests without warrant
for any offense against the United States committed in his presence, or for any
felony cognizable under the laws of the United States if he has reasonable
grounds to believe that the person to be arrested has committed, or is
committing, such felony; and...
IRM 9.1.2.2(09-06-2013)(1) - General Authority to Enforce Internal Revenue
Laws and Related Statutes provides...

1.

Title 26 United States Code (USC) §7608(b) provides the initial

authority for investigating crimes arising under the Internal Revenue laws.

A44

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
COLUMBIA DIVISION
RICHARD E. BOGGS,
Petitioner,
v.
UNITED STATES OF AMERICA, et al.,
Defendants.

)
)
)
)
)
)
)
)
)
)

C/A No. 3:18-cv-03506-MGL-SVH

DECLARATION OF SPECIAL AGENT PETER RAE
I, Peter Rae, declare pursuant to Title 28, United States Code § 1746 as follows:
1.

I am a duly commissioned Special Agent employed by the Internal Revenue

Service’s Criminal Investigation Division, I make this declaration on the basis of my personal
knowledge of the facts described herein.
2.

In my capacity as a Special Agent, I am authorized to issue administrative

summonses for documents and testimony in furtherance of investigations into any offense
connected with the administration or enforcement of the internal revenue laws. 26 U.S.C.
§ 7602(b); 26 C.F.R. § 301.7602-1; Internal Revenue Service Delegation Order No. 4 (as
revised).
3.

I am conducting an investigation of possible offenses by Mr. Boggs connected

with the administration or enforcement of the internal revenue laws.
4.

In furtherance of the above-referenced investigation, and in accordance with 26

U.S.C. § 7602, on December 10, 2018,1 issued administrative summonses (Form 2039) to th e
following entities at the addresses indicated:
a. Indotronix Int’l Corp.
687 Lee Road, Suite 250

A45

!
i

i

Rochester, NY 14606
b. ATOS IT Solutions
4851 Regent Boulevard
Irving, TX 75063
c. Artech Information Systems
121 West Trade Street, Suite 2190
Charlotte, NC 28202
d. Logic Technology, Inc.
650 Franklin Street, 4th Floor
Schenectady, NY 12305
e. Swoon Group LLC
300 S Wacker, Suite 300
Chicago, IL 60606
f. Infinite Computer Solutions
15201 Diamondback Drive, Suite 125
Rockville, MD 20850
g. Ring Legal Department, Custodian of Records
subpoenas@ring.com
5.

Each of the summonses identified in paragraph 4 directed a representative of the

entity to whom the summons was addressed to appear at my office in Charlotte, North Carolina
on January 10,2019, and produce records.
6.

On information and belief, Boggs has or had an employment relationship with

each of the entities identified in paragraph 4.a - 4.f.
7.

On information and belief, Ring.com is a company headquartered in Santa

Monica, California that provides video doorbell subscription services.
8.

Attached as Exhibit A to this declaration are true and correct copies of the

summonses identified in paragraph 4.
9.

I followed all administrative steps required by the Internal Revenue Code for

issuance of the summonses.

!
\
!
!

2

i

A46

!

10.

At the time the time the summonses were issued, none of the records or

information sought by the summonses were in the IRS’ possession. I have not yet reviewed any
records received in response to the summonses, and those records will remain segregated from
my investigation file pending resolution of Boggs’s petition to quash.
11.

I did not issue the summonses to harass Boggs or his spouse, nor did I issue the

summonses to harm his reputation.
12.

At the time the summonses were issued, and continuing through today, no Justice

Department referral as defined by 26 U.S.C. § 7602(d)(2) is in effect with respect to Richard
Boggs.
I declare under penalty of perjury that the foregoing is true and correct. Executed on the
day of February, 2019.
J
7T~
PETER RAE v T
Special Agent, Cl
Internal Revenue Service

|
I
i

I
i
3
s

